                              U.S. Department of Justice
                         Office of the Inspector General
                                           Audit Division




   Audit Report

  Independent Evaluation
      Pursuant to the
  Government Information
    Security Reform Act
     Fiscal Year 2002

The Bureau of Prisons’ Inmate
    Telephone System II




     November 2002
         03-04
                 INDEPENDENT EVALUATION PURSUANT TO THE
               GOVERNMENT INFORMATION SECURITY REFORM ACT
                            FISCAL YEAR 2002

                              THE FEDERAL BUREAU OF PRISONS’
                                INMATE TELEPHONE SYSTEM II

                             OFFICE OF THE INSPECTOR GENERAL
                                    EXECUTIVE SUMMARY

     The Federal Bureau of Prisons (BOP) is tasked with protecting society
by confining offenders in the controlled environments of prisons and
community-based facilities that are safe, humane, cost-efficient, and
appropriately secure; and providing work and other self-improvement
opportunities to assist offenders in becoming law-abiding citizens.

      The Inmate Telephone System II (ITS II) is a system that allows
inmates at a federal correctional facility to place telephone calls while
providing BOP staff with the ability to control their access, make records of
the calls, adjust inmates’ commissary account, and bill for the calls.

      The Office of the Inspector General (OIG) selected ITS II as one of five
sensitive but unclassified (SBU) systems to review pursuant to the
Government Information Security Reform Act (GISRA) for the fiscal year
(FY) 2002. The OIG is required by GISRA to perform an independent
evaluation of the Department of Justice’s (Department) information security
program and practices. This report contains the results of the ITS II audit.
Separate reports will be issued for each of the other systems evaluated
pursuant to GISRA, including three systems that process classified
information.

      Under the direction of the OIG and in accordance with Government
Auditing Standards, PricewaterhouseCoopers LLP (PwC) performed the audit
of ITS II. The audit took place from May through July 2002 and consisted of
interviews, on-site observations, and reviews of Department and component
documentation to assess ITS II’s compliance with GISRA and related
information security policies, procedures, standards, and guidelines.1 We2
used commercial-off-the-shelf and proprietary tools to conduct vulnerability


1
    In a September 1997 audit, report number 97-26, the OIG recommended that the Department develop effective
    computer security program guidance. The Department then revised its policy and released DOJ Order 2640.2D,
    “Information Technology Security” in July 2001, which was used in the analysis of this year's review.

2
    In this report, "we" refers either to the OIG or to PwC working under the direction of the OIG.
                                                          -i-
tests and analyses of significant operating system integrity and security
controls.

       During the course of our work for this review, we found improvements
or satisfactory operations within the ITS II information security controls that
are being reported. Specifically:

   •   BOP is in the process of having ITS II recertified.

   •   BOP is in the process of addressing findings identified in the June 2002
       security test and evaluation (ST&E) report.

   •   BOP staff have signed the Rules of Behavior.

   •   BOP facilities are controlled by security guards. In addition, all BOP
       employees and contractor staff must have an access badge or be
       escorted by BOP personnel to gain entry to BOP facilities.

        Despite these improvements, we assessed management, operational,
and technical controls at a medium to high risk to the protection of the
ITS II from unauthorized use, loss, or modification. Specifically, we
identified vulnerabilities in 13 of the 17 control areas. Two of the 13
vulnerabilities were identified as high risks to the protection of ITS II as
indicated in the following chart.




                                      - ii -
                                                                                VULNERABILITIES
                           CONTROL AREAS3
                                                                                    NOTED
          Management Controls
          1.    Risk Management
          2.    Review of Security Controls
          3.    Life Cycle                                                                     √
          4.    Authorize Processing
                (Certification and Accreditation)                                              √
          5.    System Security Plan                                                           √
          Operational Controls
          6.    Personnel Security                                                             √
          7.    Physical and Environmental Protection                                          √
          8.    Production, Input/Output Controls                                              √
          9.    Contingency Planning                                                           √
          10.   Hardware and Systems Software Maintenance                                      √
          11.   Data Integrity                                                                 √
          12.   Documentation
          13.   Security Awareness, Training, and Education
          14.   Incident Response Capability                                                   √
          Technical Controls
          15. Identification and Authentication                                                √*
          16. Logical Access Controls                                                          √*
          17. Audit Trails                                                                     √
       Source: The OIG’s FY 2002 GISRA audit of ITS II

       √* Significant vulnerability in which risk was noted as high. A high-risk vulnerability is defined as one where
          extremely grave circumstances can occur by allowing a remote or local attacker to violate the security
          protection of a system through user or root account access, gaining complete control of a system and
          compromising critical information.


     As a result of the findings identified in this report, we are providing 28
recommendations for improving ITS II to ensure that BOP management:

      •    Incorporate security requirements into the development and
           acquisition phases of the BOP system development life cycle (SDLC).

      •    Incorporate formal procedures to document certification/testing
           activities, update system documentation when security controls are
           added, retest security controls, and have the system recertified after
           changes have been made.


3
    Control Areas as described in the National Institute of Standards and Technology (NIST) Special Publication
    (SP) 800-26, “Security Self-Assessment Guide for Information Technology Systems.”
                                                        - iii -
•   Incorporate the in-place operating controls as outlined in the
    June 2002 ST&E report and complete the "Conditions of Certification"
    outlined in the ITS II certification statement.

•   Incorporate the guidelines for developing security plans outlined in the
    NIST SP 800-18 into the current ITS II security plan and incorporate
    the plan into the overall strategic plan for the BOP.

•   Conduct an analysis on the current staff shortages by determining the
    current security and system administrator skills on the BOP team and
    determine what skills the BOP needs to close the "gap."

•   Distribute the BOP’s documented procedures on how to maintain ITS II
    user accounts to ITS II security staff and contractor personnel.
    Additionally, enforce the procedures as required by the BOP’s Directive
    1237.11.

•   Implement all of the recommendations outlined in the June 2002 ST&E
    report, specifically those outlined in section 4.12.

•   Establish a formal documented process to control the transfer of BOP
    media and data.

•   Distribute the contingency plan to appropriate individuals, including
    contractor staff and periodically test the contingency plan.

•   Develop a configuration standard for all systems that incorporates the
    most restrictive security settings possible.

•   Develop policies and procedures surrounding the use of intrusion
    detection software and integrity validation software, and implement
    these policies and procedures on critical servers.

•   Develop a stronger policy for incident handling, response, and
    personnel support.

•   Enforce current Department password policies and procedures and
    install and activate a password filter on all servers to enforce
    parameters that enforce restrictions on passwords.

•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for access controls.

                                  - iv -
•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for user authentication and
    access.

•   Implement the system key utility, restrict services to run in a secured
    context, and remove all unnecessary services.

•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for network controls.

•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for user and group
    management controls.

•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for account integrity
    management.

•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for file system access.

•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for maintenance controls.

•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for Windows NT registry
    settings.

•   Obtain the latest security patches from the operating system vendor.

•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for router configurations.

•   Implement Cisco's fail-over capabilities on critical external routers.

•   Develop, implement, and monitor documented policy establishing
    specific security standards and settings for command line access.




                                   -v-
   •   Develop documented procedures for logging and monitoring system
       activity and require that audit logs be reviewed periodically.

   We concluded that these vulnerabilities occurred because BOP
management did not fully develop, document, or enforce agency-wide
policies in accordance with current Department policies and procedures.
Additionally, we believe the Department did not enforce their security
policies and procedures to ensure ITS II is protected from unauthorized use,
loss, or modification through its certification and accreditation process. If
not corrected, these security vulnerabilities threaten ITS II and its data with
the potential for unauthorized use, loss, or modification.




                                     - vi -
                                    TABLE OF CONTENTS

                                                                                           Page

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................... 1

INMATE TELEPHONE SYSTEM II (ITS II) NETWORK ENVIRONMENT......... 2

SUMMARY RESULTS OF THE AUDIT .................................................... 3

FINDINGS AND RECOMMENDATIONS ................................................. 4

I.   Management Controls ................................................................. 4
      A. Life Cycle .......................................................................... 4
      B. Authorize Processing (Certification and Accreditation) ............... 6
      C. System Security Plan ........................................................... 8

II. Operational Controls................................................................... 9
     A. Personnel Security ............................................................. 10
     B. Physical and Environmental Protection .................................. 12
     C. Production, Input/Output Controls ....................................... 13
     D. Contingency Planning ........................................................ 14
     E. Hardware and Systems Software Maintenance ....................... 16
     F. Data Integrity ................................................................... 17
     G. Incident Response Capability............................................... 18

III. Technical Controls .................................................................... 19
      A. Identification and Authentication.......................................... 19
      B. Logical Access Controls....................................................... 21
      C. Audit Trails ....................................................................... 41

CONCLUSION ............................................................................... 42

APPENDIX I- NATIONAL INSTUTE OF STANDARDS AND TECHNOLOGY
            GENERAL CONTROL AREAS .......................................... 43

APPENDIX II - FEDERAL BUREAU OF PRISONS RESPONSE TO THE OIG
              OIG DRAFT REPORT .................................................. 49

APPENDIX III - OIG, AUDIT DIVISION ANALYSIS AND SUMMARY OF
              ACTIONS NECESSARY TO CLOSE THE REPORT ............. 60
            OBJECTIVE, SCOPE, AND METHODOLOGY

      The fiscal year (FY) 2001 Defense Authorization Act (Public Law
106-398) includes Title X; subtitle G, “Government Information Security
Reform Act” (GISRA). GISRA became effective on November 29, 2000, and
amends the Paperwork Reduction Act of 1995 by enacting a new subchapter
on "Information Security." It requires federal agencies to:

  •   Have an annual independent evaluation of their information security
      and practices performed.
  •   Ensure information security policies are founded on a continuous risk
      management cycle.
  •   Implement controls that assess information security risks.
  •   Promote continuing awareness of information security risks.
  •   Continually monitor and evaluate information security policy.
  •   Control effectiveness of information security practices.
  •   Provide a risk assessment and report on the security needs of the
      agencies’ systems, and include the report in their budget request to
      the Office of Management and Budget (OMB).

      The objective of the audit was to determine the Department of
Justice’s (Department) compliance with the requirements of GISRA. The
Inmate Telephone System II (ITS II) was selected as one of the subset of
systems to be tested to determine the effectiveness of the Department’s
overall security program for FY 2002. In determining if the Department is
compliant with GISRA requirements, PricewaterhouseCoopers LLP (PwC)
assessed whether adequate computer security controls existed to protect the
ITS II from unauthorized use, loss, or modification.

      Under the direction of the OIG and in accordance with Government
Auditing Standards, PwC performed the audit of ITS II. The audit took place
from May through July 2002. During our audit, we met with the Federal
Bureau of Prisons (BOP) officials from the ITS II System Control Center. We
reviewed documentation that included the BOP’s information technology (IT)
documents, organizational structures, OMB GISRA reporting information, and
prior OIG and Department reports to assess the ITS II compliance with
GISRA and related information security policies, procedures, standards, and
guidelines. We performed test work at BOP Headquarters in Washington,
D.C.




                                    -1-
      For the interviews conducted, we used the questionnaire contained in
the National Institute of Standards and Technology (NIST) Special
Publication (SP) 800-26, “Security Self-Assessment Guide for Information
Technology Systems.” This questionnaire contains specific control objectives
and suggested techniques against which the security of a system or group of
interconnected systems can be measured. The questionnaire contains 17
areas under 3 general controls (management, operational, and technical).
The areas contain 36 critical elements and 225 supporting security control
objectives and techniques (questions) about the system. The critical
elements are derived primarily from OMB Circular A-130 and are integral to
an effective IT security program. The control objectives and techniques
support the critical elements. If a number of the control objectives and
techniques are not implemented, the critical elements have not been met.

      The audit approach was based on the General Accounting Office’s
Federal Information System Controls Audit Manual, the Chief Information
Officer Council Framework, OMB Circular A-130, and guidance established by
NIST. These authorities prescribe a review that evaluates the adequacy of
management, operational, and technical controls over control areas listed in
Appendix I.

INMATE TELEPHONE SYSTEM II (ITS II) NETWORK ENVIRONMENT

      The ITS was developed in 1988. In an August 1999 review
performed by the OIG, we found that a significant number of federal
inmates use prison telephones to commit serious crimes while
incarcerated – including murder, drug trafficking, and fraud. BOP
management acknowledged the shortcomings of its inmate telephone
system and indicated that a more sophisticated version of the inmate
telephone system called (ITS II), was being developed to provide more
options for restricting and controlling inmate access to prison telephones.

       While the former inmate telephone system was self-contained at
each institution and was incapable of sharing data through a central
database, ITS II is designed to allow the BOP to access inmate telephone
information from all BOP institutions simultaneously. ITS II provides the
BOP with the ability to control their access, make records of the calls,
adjust the inmates’ commissary account, and bill inmates for the calls.
ITS II also allows the BOP’s Central Office to monitor and record
telephone conversations of any inmate in the country.




                                     -2-
      ITS II provides wide-area network circuits, routers, Ethernet
switches, and network management for ITS II computer systems and
networking equipment. The ITS II consists of UNIX and Windows NT
platforms.

SUMMARY RESULTS OF THE AUDIT

      We obtained audit evidence to determine whether adequate computer
security controls existed to protect ITS II from unauthorized use, loss, or
modification. Our testing consisted of assessing management, operational,
and technical controls for 17 critical areas for the ITS II. Our testing
disclosed vulnerabilities within 13 of the 17 areas. Two of the 13
vulnerabilities were within technical controls and were identified as high risks
to the protection of ITS II.

       We concluded that these vulnerabilities occurred because ITS II
management did not fully develop, document, or enforce agency-wide
policies in accordance with current Department policies and procedures.
Additionally, we believe the Department did not enforce their security
policies and procedures to ensure ITS II is protected from unauthorized use,
loss, or modification through its certification and accreditation process. If
not corrected, these security vulnerabilities threaten ITS II and its data with
the potential for unauthorized use, loss, or modification.




                                     -3-
                    FINDINGS AND RECOMMENDATIONS

       Our review disclosed that security controls need improvement to
fully protect the ITS II from unauthorized use, loss, or modification.
Specifically we found vulnerabilities in the areas of life cycle; authorize
processing; system security plan; personnel security; physical and
environmental protection; production, input/output controls; contingency
planning; hardware and systems software maintenance; data integrity;
incident response capability; identification and authentication; logical
access controls; and audit trails.

I.    Management Controls. Management controls are techniques and
      concerns that are normally addressed by management in the
      organization's computer security program. In general, they focus on
      the management of the computer security program and the
      management of risk within the organization.

                                                       Vulnerabilities
                Management Controls
                                                            Noted
         Risk Management
         Review of Security Controls
         Life Cycle                                            √
         Authorize Processing
         (Certification and Accreditation)                     √
         System Security Plan                                  √

      As a result of testing management controls, we confirmed that controls
were adequate for ITS II’s risk management and review of security controls.
Vulnerabilities were identified within the following management control
areas:

A. Life Cycle. Security is an important part of the system life cycle, and
   security is best managed if planned for the entire IT system life cycle.
   There are many models for the IT system life cycle but most contain five
   basic phases: initiation, development/acquisition, implementation,
   operation, and disposal.

Issue: Inadequate System Development Life Cycle (SDLC)

Condition:

The BOP has not incorporated security requirements into its ITS II SDLC
procedures. During the acquisition and development phases of ITS II, the



                                             -4-
SDLC did not require the BOP to address security issues that may have
arisen.

Cause:

The BOP ITS II management failed to fully implement its SDLC methodology.

Criteria:

DOJ Order 2640.2D, Information Technology Security, states that
components shall develop and implement a risk-based security process to
provide security throughout the life cycle of all systems supporting their
operations and assets.

Risk:

Without security requirements being outlined for the development and
acquisition phases of the SDLC, complications in the development process
can arise that could cause system vulnerabilities to be present in the final
production system.

Recommendation:

   1. We recommend that the BOP Director ensure that BOP management
      incorporate security requirements into the development and
      acquisition phases of the SDLC.

Issue: Inadequate Change Control Procedures

Condition:

ITS II does not have adequate change control procedures in place to:
(a) document certification testing activities, (b) update system
documentation when security controls are added, (c) retest security controls,
or (d) recertify the system after changes have been made.

Cause:

BOP management failed to fully implement the SDLC methodology.

Criteria:

DOJ Order 2640.2D requires that a configuration management process be in
place to maintain control of changes to any system.




                                      -5-
Risk:

The absence of adequate change control procedures in the SDLC can lead to
numerous complications if or when changes are made to ITS II. This can
include system failures, system vulnerabilities, and other system flaws. In
addition, any changes made for security purposes will not be documented.

Recommendation:

   2. We recommend that the BOP Director ensure that BOP management
      incorporate documented procedures to document certification testing
      activities, update system documentation when security controls are
      added, retest security controls, and recertify the system after changes
      have been made.

B. Authorize Processing (Certification and Accreditation). Authorize
   processing (also referred to as certification and accreditation) provides a
   form of assurance of the security of the system. Computer security
   assurance is the degree of confidence one has that the security
   measures, both technical and operational, work as intended to protect
   the system and the information it processes. Certification is a formal
   process for testing components or systems against a specified set of
   security requirements while accreditation is a management official's
   formal acceptance of the adequacy of a system's security. Computer
   security accreditation forces managers and technical staff to work
   together to find workable, cost-effective solutions of security needs,
   technical constraints, operational constraints, and mission or business
   requirements.

Issue: Operating Controls Not In Place

Condition:

Although ITS II was certified and accredited, we found that BOP
management did not improve operating controls outlined in a security test
and evaluation (ST&E) report completed by a contractor in June 2002. The
report identified 13 areas of weaknesses and correlating recommendations
for improving operating controls over ITS II. In addition, areas such as virus
controls, password controls, and user level access controls outlined in a
December 2000 certification statement as conditions for certification had not
been met.




                                     -6-
Cause:

BOP management did not update the system resources to fully improve
security over the network.

Criteria:

DOJ Order 2640.2D requires that each component shall evaluate their IT
security programs and system protection mechanisms and report
deficiencies to the Chief Information Officer annually.

Risk:

Without in-place controls operating as intended, ITS II is vulnerable to
security breaches that could lead to a denial of service or a full compromise
of the system.

Recommendation:

   3. We recommend that the BOP Director ensure that BOP management
      update operating controls as outlined in the June 2002 ST&E report,
      and complete the "Conditions of Certification" outlined in the ITS II
      certification statement.

Issue: Rules of Behavior

Condition:

The BOP developed Rules of Behavior (BOP Directive 1237-12) that BOP
approved to provide guidance on how to use BOP systems. BOP staff signed
the Rules of Behavior; however, the ITS II contractor personnel have not.
Therefore, contractor personnel are not necessarily aware of the BOP’s
procedures and guidelines for administering and operating ITS II.

Cause:

BOP management did not follow Department procedures requiring
contractor’s acknowledgement of the Rules of Behavior document.

Criteria:

NIST SP 800-18, A Guide For Developing Private Security Plans For
Information Technology, states that a set of Rules of Behavior must be
established for each system and should be made available to every user




                                     -7-
prior to receiving authorization for access to the system. It is recommended
that the rules contain a signature page for each user to acknowledge receipt.

Risk:

Contractor personnel not signing the Rules of Behavior document could have
several negative effects. For example, users could potentially find
themselves in a situation where they are unsure of how to act given the
circumstances and could choose an action that goes against the BOP policy.
Additionally, the BOP could be unable to hold contractors and vendors
accountable for their actions should they affect the BOP or ITS II negatively.

Recommendation:

  4. We recommend that the BOP Director ensure that BOP management
     requires all users, including vendor and contractor personnel, to read
     and sign the Rules of Behavior document (BOP Directive 1237-12) to
     ensure users are aware of its contents.

C. System Security Plan. A system security plan provides an overview of
   the security requirements of the system and describes the controls in
   place or planned for meeting those requirements. The plan delineates
   responsibilities and expected behavior for all individuals who access the
   system.

Issue: Security Plan

Condition:

While the BOP has developed a system security plan for ITS II, BOP did not
address critical elements. For example, the BOP has not incorporated all
aspects of NIST SP 800-18, into the security plan. In addition, the plan for
ITS II was not incorporated into the BOP's overall strategic information
resources management (IRM) plan.

Cause:

The current system security plan was developed by the main ITS II
contractor, and was based on the contractor’s standards, not those of the
BOP or the Department.




                                     -8-
Criteria:

DOJ Order 2640.2D Section 5 states:
“Components shall ensure the certification and accreditation of all systems
under their operational control.
     c. For each classified and sensitive but unclassified (SBU) system the
        certification official shall:
            (1) Ensure a system security plan is prepared and maintained
                 throughout the system life cycle.
            (2) Ensure a system test and evaluation is conducted and the
                 results of such tests are documented.”

Risk:

Without incorporating NIST SP 800-18 standards into the security plan and
not incorporating the security plan into the BOP's overall strategic plan could
result in aspects of the security plan being incomplete or not in accordance
with overall BOP security guidelines. This could lead to a less secure system
overall.

Recommendation:

  5. We recommend that the BOP Director ensure that BOP management
     incorporate the guidelines for developing security plans outlined in
     NIST SP 800-18 into the current ITS II security plan and incorporate
     the plan into the overall IRM strategic plan for the BOP.

II.     Operational Controls. Operational controls address security controls
        that are implemented and executed by people. These controls are put
        in place to improve the security of a particular system. They often
        require technical or specialized expertise and rely upon management
        activities as well as technical controls.

                                                          Vulnerabilities
                  Operational Controls
                                                              Noted
            Personnel Security                                   √
            Physical and Environmental Protection                √
            Production, Input/Output Controls                    √
            Contingency Planning                                 √
            Hardware and Systems Software Maintenance            √
            Data Integrity                                       √
            Documentation
            Security Awareness, Training, and Education
            Incident Response Capability                         √




                                           -9-
       Our testing confirmed that operational controls were adequate within
the areas of documentation and security awareness, training, and education
for ITS II. However, our testing also identified vulnerabilities within other
critical areas of operational controls. The specific details identifying these
vulnerabilities are listed below.

A. Personnel Security. Personnel security involves the use of computer
   systems by human users, designers, implementers, and managers. A
   broad range of security issues relates to how these individuals interact
   with computers and the access and authorities they need to do their
   jobs.

Issue: Segregation of Duties

Condition:

Currently, the BOP system administration and system security
responsibilities are not adequately separated to ensure least privilege and
individual accountability. In addition, different individuals do not always
perform distinct systems support functions.

Cause:

According to BOP personnel, due to staff constraints, system maintenance,
user maintenance, and security and network administration activities all fall
under one person for the BOP and one person for the contractor. In
addition, staffing constraints have resulted in one person acting as both a
maintenance manager and a researcher and developer.

Criteria:

DOJ Order 2640.2D, Chapter 2, Section 23 (a) and (c), states: “Department
IT systems shall have assignment and segregation of system responsibilities
defined and documented…. At a minimum, there shall be a clearly defined
role for a security administrator and a system administrator.” Additionally,
“Controls [compliant with Department access control policies] shall be in
place to ensure that the user [and administrators] has access to only the
resources required to accomplish their duties and no more.”

Risk:

Tasking the same individuals to be responsible for development, system
administration, and security administration could potentially allow an
individual to commit fraudulent activity and "cover-up" his/her tracks
without the BOP detecting the activity. In addition, individuals could



                                     -10-
potentially implement "backdoors" that would allow access once the
individual has left the BOP.

Recommendation:

  6. We recommend that the BOP Director ensure that BOP management:

            a. conduct an analysis on the current staff shortages by
               determining the current security and system administrator
               skills on the BOP team and determine what skills the BOP
               needs to close the "gap." If additional staff is required, hire
               additional personnel who are trained and experienced security
               and/or system administrators;

            b. ensure that those individuals who currently function as both
               security administrators and system administrators are moved
               to positions where these responsibilities do not conflict; and

            c. ensure that developers are not tasked with either system or
               security administration.

Issue: Hiring, Transfer, and Termination Documentation

Condition:

Not all BOP ITS II security staff and contractor personnel are aware of the
BOP’s user account maintenance policy, which provides procedures for how
to handle ITS II user accounts when employees are hired, transferred or
terminated.

Cause:

According to the BOP security staff, the policy had not been communicated
to them or ITS II contractor personnel.

Criteria:

BOP Directive 1237-11, states: “Users shall be trained in protection of
computer hardware, software, and information. This includes all persons
employed by or working with the Department of Justice receiving direct or
indirect compensation or none at all (Public Health Service staff, contractors,
volunteers, interns, persons representing or detailed from other Government
agencies, etc.). They shall be made thoroughly aware of security and
contingency plans for systems they use.”




                                     -11-
Risk:

Without the awareness of the documented procedures for user account
maintenance, accounts may be added to the ITS II without authorized
approval and accounts of employees that have transferred or been
terminated may not be removed in a timely manner.

Recommendation:

        7. We recommend that the BOP Director ensure that BOP
           management:

             a. distribute the BOP’s documented procedures on how to
                maintain BOP ITS II user accounts to ITS II security staff and
                contractor personnel; and

             b. enforce procedures in accordance with the BOP Directive
                1237.11 and Department policy.

B. Physical and Environmental Protection. Physical security and
   environmental security are the measures taken to protect systems,
   buildings, and related supporting infrastructures against threats
   associated with their physical environment.

Issue: Physical Access

Condition:

The BOP does not have adequate physical security controls in place for
ITS II. The ST&E report identified physical security weaknesses relating to
13 areas under NIST SP 800-26, which are being used for this GISRA
review. These deficiencies included weaknesses in areas such as physical
access to ITS II systems (routers, switches, and wiring closets),
documentation of employee access to sensitive areas, reporting of suspicious
activities, unauthorized viewing of computer monitors, and fire suppression
and prevention.

Cause:

The BOP security management has not taken all appropriate steps to meet
the Department and BOP requirements for physical security.




                                     -12-
Criteria:

DOJ Order 2640.2D, states: "Department IT systems shall be physically
protected commensurate with the highest classification or sensitivity of the
information." In addition, BOP Directive 1237-11 Section 5 also outlines
requirements for physical security.

Risk:

Without adequate physical security controls, unauthorized physical access to
ITS II can be obtained and damage can be done to the systems. In
addition, the systems may not be properly protected from disaster events
such as fires and floods.

Recommendation:

        8. We recommend that the BOP Director ensure that BOP
           management implement all of the recommendations outlined in the
           June 2002 ST&E report, specifically those outlined in section 4.12.

C. Production, Input/Output Controls. There are many aspects to
   supporting IT operations. Topics range from user help desk to
   procedures for storing handling and destroying media.

Issue: Sensitive Media

Condition:

To date, the BOP did not develop documented procedures for handling
sensitive media. No formal process has been established to ensure that only
authorized individuals can pick up, receive, or deliver input and output
information and media. In addition, no documented process has been
established to ensure adequate audit trails are used and maintained for
inventory management, and labeling of sensitive media.

Cause:

According to BOP, an inadequate number of trained security personnel are
on the ITS II security team to handle the associated responsibilities for
developing the formal policies and procedure for handling sensitive media
and perform the daily tasks required to maintain a secure computing
environment.




                                      -13-
Criteria:

BOP Directive 1237.11, states: “Be responsible for security of individual and
shared office space containing computers, sensitive printouts, and electronic
storage devices/media…. Take reasonable precautions to avoid loss of or
damage to Government property and information.”

DOJ Order 2640.2D Chapter 2 Section 19, states: “Department IT systems
shall: maintain an audit trail of activity sufficient to reconstruct security
relevant events.”

Risk:

Without these procedures in place, unauthorized individuals could potentially
gain access to sensitive BOP data. The lack of adequate audit trails for
inventory management could also allow someone with access to the BOP
hardware and software to either accidentally or intentionally misplace
system components. In addition, contractor staff may not be made aware of
the BOP’s procedures for handling sensitive media once they have been
created.

Recommendation:

        9. We recommend that the BOP Director ensure that BOP
           management document a process to control the transfer of media
           and BOP data. In addition, the BOP management should ensure
           that audit trails are kept and retained for extended periods of time,
           capturing relevant information such as name, date, media
           description, and authorization.

D. Contingency Planning. Contingency planning can ensure continued
   operations by minimizing the risk of events that could disrupt normal
   operations and having an approach in place to respond to those events
   should they occur.

Issue: Contingency Plan Implementation

Condition:

The current BOP contingency plan has not been distributed to all ITS II
personnel. In addition, the current contingency plan for ITS II is not
periodically tested and ITS II staff have not been trained in their roles and
responsibilities concerning the contingency plan.




                                       -14-
Cause:

The BOP ITS II management have not distributed the contingency plan to
appropriate BOP personnel. The BOP management does not know if the plan
has been distributed to the vendor's (Dyncorp) personnel.

Criteria:

BOP Directive 1237-11, states: “Users shall be trained in protection of
computer hardware, software, and information…. They shall be made
thoroughly aware of security and contingency plans for systems they use.”

DOJ Order 2640.2D Chapter 1 Section 9, states: “Components shall plan for
how they will perform their missions in the event their IT systems are
unavailable and how they will recover these IT systems in the event of loss
or failure. Components shall:…. Test contingency/business resumption
plans annually or as soon as possible after a significant change to the
environment that would alter the in-place assessed risk.”

Risk:

By not properly distributing the contingency plan, the BOP’s security staff
may not be fully informed with the plan’s details, and contractor staff may
not be aware of the appropriate steps to take should a system recovery
become necessary. Not testing the plan could allow deficiencies or
weaknesses in the plan to go unnoticed for correction until an actual
emergency situation. This also leaves the BOP personnel unfamiliar with the
steps to take in the event of a disaster and unaware of who is responsible
for completing each step as outlined in the plan.

Recommendation:

  10. We recommend that the BOP Director ensure that BOP management:

            a.   distribute the contingency plan to appropriate individuals,
                 including contractor staff; and

            b.   periodically test the Contingency plan and their employees
                 and contractor staff in their roles and responsibilities.




                                    -15-
E. Hardware and Systems Software Maintenance. Hardware and
   systems software maintenance controls are used to monitor and provide
   a historical record of installations and upgrades.

Issue: Security Configuration

Condition:

The ITS II operating systems were not properly configured to prevent
circumvention of the security software and application controls. We
observed weak passwords on ITS II (Windows NT administrator level
accounts with passwords set to the account name and administrator level
accounts without passwords), and numerous vulnerabilities were identified
by the contractor in its ST&E report. We also identified numerous
vulnerabilities in ITS II diagnostic reviews. In addition, the default settings
of security features for ITS II are not as restrictive as possible (Windows NT
systems allowed enumeration of users, file permissions were not restrictive,
and Simple Network Management Protocol (SNMP) community strings were
weak).

Cause:

These conditions exist due to the lack of a formal configuration standard for
the ITS II system.

Criteria:

DOJ 2640.2D CHAPTER 2 Section 16, states: “Access controls shall be in
place and operational for all Department IT systems to:.… Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Risk:

Without properly configured security settings on operating systems,
attackers can compromise the ITS II.

Recommendation:

   11. We recommend that the BOP Director ensure that BOP management
       develop a configuration standard for all systems that incorporate the
       most restrictive security settings possible. In addition, the BOP
       should implement all the recommendations outlined in the ST&E
       report.




                                     -16-
F. Data Integrity. Data integrity controls are used to protect data from
   accidental or malicious alteration or destruction and to provide assurance
   to the user that the information meets expectations about its quality and
   integrity.

Issue: Integrity and Validation Controls

Condition:

Currently, the integrity and validation controls for the ITS II are not
adequate. No Intrusion Detection System (IDS) has been installed on ITS II
and no integrity verification programs are being used.

Cause:

The BOP does not have policy on the use of an IDS and integrity verification
programs. Additionally, the BOP lacks policy on system penetration testing.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to:.… Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Risk:

The lack of these controls creates an inability to ensure data integrity and to
validate data. This could potentially cause BOP to be vulnerable to
unauthorized data modifications. The lack of an IDS also leaves
administrators without the benefit of advanced notice of unusual network or
system activity. Without the warning an IDS can provide, it is more difficult
to respond effectively to suspicious activity.

Recommendation:

   12. We recommend that the BOP Director ensure that BOP management
       develop policies and procedures surrounding the use of intrusion
       detection software and integrity validation software and implement
       these policies and procedures on critical servers.




                                     -17-
G. Incident Response Capability. Computer security incidents are an
   adverse event in a computer system or network. Such incidents are
   becoming more common and their impact is far-reaching.

Issue: Incident Handling

Condition:

In reviewing ITS II, we found the BOP's response, handling, and support
procedures for security incidents are not adequate. BOP does not have a
formal incident response capability implemented and information concerning
incidents does not appear to be disseminated to appropriate personnel or
organizations.

Cause:

The BOP does not have a policy addressing incident handling and response,
or that addresses how personnel shall be trained to respond.

Criteria:

DOJ Order 2640.2D Chapter 1 Section 5, states: “For SBU systems, security
incidents that meet the criteria established by the DOJ Computer Emergency
Response Team (DOJCERT) shall be reported by the component to DOJCERT
within time frames established by DOJCERT. For classified systems, the
component shall immediately report to the Department Security Officer
(DSO) any incident involving the loss, compromise, or other event affecting
the security of a classified system.”

Risk:

Incidents that the BOP may encounter run the risk of not being properly
handled. The correct or appropriate resolution may not be reached and
responsible individuals may not be informed of the incident. Also, by not
sharing incident information with other organizations, a common attack or
virus outbreak with a known resolution will not be as easily solved for BOP or
other affected organizations.

Recommendation:

   13. We recommend that the BOP Director ensure that BOP management
       develop a policy for incident handling, response, and personnel
       support.




                                    -18-
III. Technical Controls. Technical controls focus on security controls that
     the computer system executes and depend upon the proper
     functioning of the system to be effective. Technical controls require
     significant operational considerations and should be consistent with the
     management of security within the organization.

                                                                             Vulnerabilities
                      Technical Controls
                                                                                    Noted
          Identification and Authentication                                             √*
          Logical Access Controls                                                       √*
          Audit Trails                                                                  √

   √* Significant vulnerabilities in which risk was noted as high. A high-risk vulnerability is defined as one
      where extremely grave circumstances can occur by allowing a remote or local attacker to violate the
      security protection of a system through user or root account access, gaining complete control of a system
      and compromising critical information.


A. Identification and Authentication. Identification and authentication
   are technical measures that prevent unauthorized people or processes
   from entering an IT system. Identification, most commonly used for
   access control, is the means in which users claim their identities to a
   system. Authentication is verification that a person’s claimed identity is
   valid and is usually implemented through the use of passwords.

Issue: Password Management

      A password is a unique string of characters that must be provided
before a logon or access is authorized to a computer system. Passwords are
security measures used to restrict logons to user accounts and access to
computer systems and resources. The BOP password controls were found to
be inadequate.

Condition:

      •   The password policy on the BOPCOF server allows blank passwords.

      •   The minimum password age policy is set too low allowing password
          changes too soon on both BOPCOF and BOPCO1 servers.

      •   The password history is set to less than 10 on both BOPCOF and
          BOPCO1 servers.

      •   The service pack enhancement Passfilt is not being used on the
          BOPCOF server.




                                                   -19-
        •   The resource kit utility, 'passprop', is not being utilized on both
            BOPCOF and BOPCO1 servers.

        •   The account lockout feature is not adequately set on BOPCOF and
            BOPCO1 servers.

        •   The Administrator account password is blank on the BOPCOF
            server.

        •   Nineteen users have the "password never expires" setting on the
            BOPCO1 server and two users have this setting on the BOPCOF
            server.

        •   The PASSLENGTH variable is set to six characters on the BOP UNIX
            server.

        •   The MAXWEEKS variable is set to 0 weeks.

        •   An EEPROM password has not been set.

Cause:

These vulnerabilities occurred because BOP management did not enforce
compliance with Department password policies and procedures.

Criteria:

DOJ Order 2640.2D requires the Department’s IT systems to implement
eight-character password composed of at least three of the following:
English uppercase, English lower case, numeric, and special characters. In
addition, the Department’s IT systems should comply with Department
password management policy (DOJ-TS-001).

Risk:

Without strong password management controls, the BOP increases the risk
that unauthorized persons could access sensitive ITS II resources, exposing
information to unauthorized use, loss, or modification.

Recommendation:

  14. We recommend that the BOP Director ensure that BOP management
      enforce formal Department password policies and procedures and
      install and activate a password filter on all servers to enforce
      parameters that enforce restrictions on passwords.



                                         -20-
B. Logical Access Control. Logical access controls are the system-based
   mechanisms used to designate who or what is to have access to a
   specific system resource and the type of transactions and functions that
   are permitted.

Issue: Access Controls

Condition:

We found logical access controls were inadequate for restricting user
activities and network access. On the network, insecure protocols are being
used with the router, no formal procedures exist for changing vendor-
supplied default security parameters, idle sessions are not disconnected, and
no formal policy or procedures exist for firewalls.

Cause:

The BOP management did not develop documented policy and procedures
dictating the implementation and use of access control software for the
prevention of fraudulent activity.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to:.… Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Risk:

Without access controls in place, BOP management is unable to prevent an
individual from committing fraud.

Recommendation:

  15. We recommend that the BOP Director ensure that BOP management
      develop, implement, and monitor documented policy establishing
      specific security standards and settings for access controls. At a
      minimum, these standards and settings should:

            a. Establish policy and procedures for disabling insecure protocols.

            b. Establish policy dictating the reset of vendor default security
               parameters to more secure settings.



                                       -21-
            c. Configure network connections to automatically disconnect.

            d. Establish standard firewall procedures for configuring the
               firewall.

            e. Restrict access to tables defining network options, resources,
               and operator profiles.

Issue: User Authentication and Access

Condition:

User authentication and access is not properly controlled on the ITS II
network. Specifically:

   •   Access scripts with embedded passwords are not prohibited.

   •   Service and administrator accounts have weak passwords.

   •   Inactive user accounts are not disabled after a specific period of time.

   •   Lost or compromised passwords are handled inappropriately.

   •   No formal procedures for replacing vendor-supplied passwords.

   •   Data owners do not periodically review access authorizations to
       determine whether they remain appropriate.

Cause:

The ITS II management did not have documented procedures for monitoring
access scripts with embedded passwords, disabling inactive user accounts,
handling lost or compromised passwords, replacing vendor-supplied
passwords, service and administrator accounts with weak passwords, and
data owners ability to review access authorizations so that only individuals
with a need to know can access files.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to: … Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."




                                      -22-
Risk:

Without periodic review of access permissions, it is possible that individuals
without a legitimate need may gain access to sensitive information.

Recommendation:

   16. We recommend that the BOP Director ensure that BOP management
       develop, implement, and monitor documented policy establishing
       specific security standards and settings for user authentication and
       access. At a minimum, these standards and settings should:

             a. Prohibit the use of access scripts with embedded passwords.

             b. Require data owners to review access authorizations to
                determine whether they remain appropriate.

Issue: Server Configuration

Condition:

   •    The system key (SYSKEY) on the Windows NT servers was disabled.
        Enabling this option decreases the risk that password hashes will be
        cracked if obtained. A utility has been released that can extract the
        Windows NT password hashes even with SYSKEY enabled; therefore,
        this risk is only partially mitigated.

   •    Fifteen of the services on BOPCO1 and nine of the services on BOPCOF
        are running in an insecure context. If services running as LocalSystem
        are allowed to interact with the desktop, there is an increased risk that
        domain resources may be compromised by a locally logged on user
        who would have system access to server resources. If the service is
        compromised by an unauthorized user, they would be able to access
        any resources available to the user account under which it is running.

   •    BOPCO1 is running the spooler service, which for a Primary Domain
        Controller (PDC) is an unnecessary service. Both BOPCOF and
        BOPCO1 are running the “messenger” and “alerter” services. Running
        unnecessary applications, services or protocols opens the server to any
        vulnerabilities that exist within each one.

   •    For UNIX, the BOPNNM server is running nine extraneous services.

   •    On the Cisco router, finger and Cisco discovery protocol are running.




                                       -23-
Cause:

The BOP management did not develop documented procedures regarding the
implementation of the system key utility. In addition, services such as
LocalSystem, in "interactive" mode, and "spooler" are running on the server.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to:…. Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure.”

NIST Interagency Reports (NISTIR) 5153 Section 3.2.2, states: "Each
resource delivered with the system shall have the most restrictive access
rights possible to permit the intended use of that resource."

Risk:

These services pose a risk to the system in that many are known to either
present system users’ information or have known vulnerabilities.

Recommendation:

   17. We recommend that the BOP Director ensure that BOP management:

          a. implement the system key utility and restrict services so that
             they are running in a secure context; and

          b. ensure the removal of all unnecessary services.

Issue: Networking Controls

Networking controls access the system from the network. These controls
are a front-line defense for the system against intruders.

Condition:

Specifically, we found:

   •    Of the two Windows NT servers tested, the auditors discovered both
        BOPCO1 and BOPCOF allow users to login with cached login
        information. This means the user name information of the last user is
        already provided at the login prompt. With this information provided,




                                      -24-
        an attacker already has 50 percent of the login information required to
        gain access to the system.

  •     Routing updates sent by a router may advertise internal network
        topologies to groups or third parties that may be untrusted. In
        addition, interfaces that routinely advertise routing information may
        impede network efficiency, especially if neighboring routers are using
        other routing protocols or using static routes.

Cause:

The BOP management did not develop documented procedures for
networking controls.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to:.… Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Risk:

Without formal networking control procedures, ITS II user logon information
is vulnerable in the event of an unauthorized user gaining access to the
system.

Recommendation:

  18. We recommend that the BOP Director ensure that BOP management
      develop, implement, and monitor documented policy establishing
      specific security standards and settings for networking controls. At a
      minimum, these standards and settings should include:

             a. The registry key on Windows NT servers,
                HKLM\Software\Microsoft\WindowsNT\CurrentVersion
                \Winlogon\CachedLogonsCount, should be set to 0.

             b. The command on routers in global configuration mode:
                Passive-interface type number where “type” refers to the
                interface type and “number” is the interface number.




                                      -25-
Issue: User and Group Management Controls

Management of users and groups is key to controlling access to the system.
Proper user and group management can help to enhance overall system
security.

Condition:

Specifically, we found:

   •   Accounts that have not been logged into for an extended period of
       time have not been disabled on both BOPCOF and BOPCO1. Having
       outstanding accounts that are no longer needed increases the risk of
       unauthorized access.

   •   The default administrator accounts need to be renamed and given
       strong passwords on BOPCOF and BOPCO1. The 'Administrator'
       accounts are known to exist on all Windows NT systems.
       Consequently, they are among the first accounts that an intruder will
       attempt to use. The 'Administrator' account on Windows NT has all
       system rights and therefore should be the most protected account on
       the system. If these accounts are not renamed, an attacker would
       only need to guess the password. Depending on other system
       settings, this might be easy to achieve in a relatively short period of
       time without being detected.

   •   The BOPCOF\Domain Users group is a member of the Local
       Administrators group. The resulting effect is Domain users, which are
       members of the local administrators group, have administrator access
       to the server.

   •   The special group “Everyone” is being used on the BOPCOF and
       BOPCO1 servers. Access control lists for files and directories include
       the “Everyone” group on BOPCOF. The special group “Everyone” is
       anyone, to includes domain users, null session connections, and other
       trusted domain users. Using the special group “Everyone” is very
       broad and could inadvertently allow an intruder to gain access to
       system resources.

   •   An FTP users file (/etc/ftpusers) has not been created to restrict FTP
       access to authorized users.




                                      -26-
Cause:

The ITS II management lack procedures for renaming the administrator and
guest accounts and assigning strong passwords. In addition, account
activity is not being reviewed on a regular basis.

Criteria:

NISTIR 5153 Section 3.2.2, states: "Each resource delivered with the system
shall have the most restrictive access rights possible to permit the intended
use of that resource."

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to: … Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Federal Bureau of Prisons (FBOP) 1237.11, Information Security Programs,
Section 6, Paragraph b, regarding Movement of Personnel, states: “A new
user ID shall be issued at a staff member's new duty station. The ISO at the
transferring location shall disable the old user ID within one working day of
the employee's departure and delete the ID within 30 days. For a SENTRY
ID that cannot be created at the new duty station, use procedures
prescribed in c.(3), following. On the UNICOR MCS system, the old user ID
shall be permanently disabled, rather than deleted. For all involuntary
separations and home duty assignments, the departing employee's access to
all computer systems shall be immediately disabled and his/her supervisor
or the ISO shall confiscate accessible media. For routine voluntary
permanent separations, the employee's access shall be terminated no later
than one working day following departure.”

Risk:

Without the existence of the /etc/ftpusers file, any user listed in the
/etc/passwd file can transfer files across the network. This increases the risk
that unauthorized files are transferred across the network. In addition, the
'Administrator' account is known to exist on all Windows NT systems.
Consequently, it is among the first accounts that an intruder will attempt to
use. The 'Administrator' account on Windows NT has all system rights and
therefore should be the most protected account on the system. If the
account is not renamed, an attacker would only have to guess the password.
Depending on other system settings, this might be easy to achieve in a
relatively short period of time without being detected.




                                     -27-
Recommendation:

   19. We recommend that the BOP Director ensure that BOP management
       develop, implement, and monitor documented policy establishing
       specific security standards and settings for user and group
       management controls. At a minimum, these standards and settings
       should include:

           a. Review user account activity and disable or remove accounts
              that have been inactive for an extended period of time or are
              no longer needed.

           b. Develop procedures for renaming the Administrator accounts
              and assigning strong passwords that are a minimum of eight
              characters and contain alphanumeric and special characters.

           c. Remove domain users from the local administrator group.

           d. Replace references to the special group 'Everyone' with
              'Domain users', 'Authenticated Users' or Domain application
              groups.

           e. Create the /etc/ftpusers file.

Issue: Account Integrity Management

A system administrator manages user and account rights to ensure that
account information conforms to system security policy. A system of user
rights and advanced user rights control account integrity. User rights define
what a user can do on the system. These rights may include the right to
logon directly at a computer (local logon) or the right to logon to a computer
over the network (remote logon). Advanced user rights are reserved for
users involved in programming efforts.

Typically, administrators can create two types of accounts—user and group
accounts. A user account belongs to one person only; rights assigned affect
only that account. A group account is a collection of users with common
rights. In addition, to maintain account integrity, users must be clearly
identified on the system in order to track their use of system resources.
Account integrity is also strengthened by renaming Administrator and Guest
accounts to make them unidentifiable to unauthorized users and making
sure that users can be clearly identified in order to track their use of system
resources.




                                     -28-
Condition:

Specifically, we found:

   •   Unauthenticated users can access this computer from the network.
       Lack of a standard user rights assignment policy for Windows NT users
       allows the \Everyone group to access this computer from the network.
       The special \Everyone group includes unauthenticated users.

   •   On BOPCOF the Local Administrators group has "Backup files and
       Directories" right. There should be a segregation of duties between
       administrators, users, and individuals who can backup files. Individuals
       with this user right can bypass the access control list (ACL) of a file
       and read any file. This is an issue because the domain users group is
       also a member of the local administrators group.

   •   The "Change the system time" standard user right is not restricted on
       BOPCO1. Accuracy of the system time is a prerequisite for an audit
       trail because knowing who was accessing resources at a specified time
       could implicate a user. The entire audit, event monitoring, and logging
       system is based on time and therefore, requires that time not be
       tampered with. Security policies, such as those for account lockout
       and expiration, are based on the system time.

   •   The "Log on locally" standard user is not restricted on BOPCOF.
       Although, a security control inherent in Windows NT is that the first
       entry in the new log states that the old log was cleared and by whom.
       Only authorized individuals, such as the Security Officer or the Internal
       Auditor, should be given this right. Those types of individuals should
       be members of an auditors group.

   •   The "Restore file and directories" standard user right is not restricted.
       There should be a segregation of duties between Administrators,
       users, and individuals who can restore files. Individuals with this user
       right can bypass the ACL of a file and read or write to any file on the
       server.

   •   The "Shut down the system" standard user right is not restricted on
       both servers. Individuals who can shut down the Primary Domain
       Controller (PDC) could cause a denial of service or degrade the
       performance of the network performance subject to Backup Domain
       Controller (BDC) configurations.

   •   The "Take ownership of files or other objects" standard user right is
       not restricted on BOPCOF. This is a very powerful user right because



                                      -29-
        individuals can ignore the ACL of an object, take ownership of the
        object, and change the ACL.

  •     The 'Act as Part of the Operating System' advanced user right is not
        restricted on BOPCO1. The right is one of the most powerful rights
        within Windows NT. It allows the designated accounts to act as a
        trusted part of the operating system and can therefore perform any
        activity regardless of other rights.

  •     The "Log on as a service" advanced user right is not restricted on both
        servers. The “Log on as a Service” right allows a user to log on as a
        service, similar to those required by virus scanners and faxing
        software. These services run in the background without any
        interaction from any additional users. Some services have full control
        over the system and could be very powerful if configured in that
        manner.

  •     “Increase scheduling priority" and "profile single process" advanced
        user rights are assigned inappropriately on BOPCOF. These advanced
        user rights could be used to compromise the PDC if they are granted
        to the wrong individuals other than administrators. The advanced
        rights are very powerful and do not need to be granted to normal
        users.

Cause:

The BOP management did not develop a documented user rights assignment
policy.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to:…. Enable the use
of resources such as data and programs necessary to fulfill job
responsibilities and no more."

Risk:

Without policy and procedures in place for account integrity management,
ITS II is exposed to attacks from unauthenticated users.




                                      -30-
Recommendation:

    20. We recommend that the Director of the BOP ensure that BOP
        management develop, implement, and monitor documented policy
        establishing specific security standards and settings for account
        integrity management. At a minimum, these standards and settings
        should include:

             a. “Log on locally,”

             b. “Access this computer from the network,”

             c. “Restore files and directories,”

             d. “Shut down the system,”

             e. “Take ownership of files or other objects,”

             f. “Act as part of the operating system,”

             g. “Log on as a service,” and

             h. “Increase scheduling priority.”

Issue: File System Access

Access to the file system can be controlled at the group or user level.
Inappropriate settings for file system access can leave sensitive system
information vulnerable to unauthorized disclosure or modifications.

Condition:

Specifically, we found:

•   The \Everyone group has access to directories containing applications or
    sensitive files. The special group 'Everyone' is anyone, to include domain
    users, null session connections, and other trusted domain users. Using
    the special group 'Everyone' is very broad and could inadvertently allow
    an intruder to gain access to system resources.

•   Users without a legitimate business requirement have access to sensitive
    system utilities in the \winnt directory. If user accounts are granted
    access to potentially sensitive utilities there is an increased risk that the
    user may gain information that could be used to compromise the security




                                       -31-
    of the domain, or perform actions that may affect the security and
    productivity of the domain.

•   The BOPNNM server has an excessive number of world-writeable files and
    directories. Files that are world-writeable allow any user on the system
    the ability to modify or delete their contents. Improper permissions on
    home directories could potentially allow a user to obtain the level of
    access of another ID on the server. If the compromised ID is business-
    critical, then this vulnerability is high-risk and could be exploited to gain
    privileged access on the server.

•   Network File System (NFS) shares are not adequately secured. Read,
    write, and export to the world permissions exist on one of the directories.
    NFS exported directories could potentially expose the NFS servers to
    greater risk. It is possible to “mis-configure” the NFS export file and
    potentially allow remote users from NFS clients to gain root access on the
    NFS server.

Cause:

The BOP security management did not develop documented procedures for
exporting and sharing users' directories.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to:…. Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Risk:

Without ITS II procedures in place, NFS directories exported to everyone can
be mounted by any remote user without authentication. An attacker does
not need to actually break into a remote system. Instead, all that is
necessary is to mount a file system via NFS.

Recommendation:

    21. We recommend that the BOP Director ensure that BOP management
        develop, implement, and monitor documented policy establishing
        specific security standards and settings for file system access. At a
        minimum, these standards and settings should:

            a. Replace references to the special group 'Everyone' with 'Domain
               users', 'Authenticated Users', or Domain application groups.


                                      -32-
            b. Remove access to sensitive system utilities from accounts that
               do not require access.

            c. Review and remove unnecessary permissions on files and
               directories.

            d. Restrict access to the network file system shares.

Issue: Maintenance Controls

For purposes of the operating system server review, maintenance controls
relate to standard user profiles and the use of password protected screen
savers and login warning banners.

Condition:

  •   On BOPCOF, a password protected screen saver is not being used.

  •   The Unix server does not display a system warning message when
      users log on the server.

Cause:

The BOP management currently is not following policy regarding password
protected screen savers and system warning banners.

Criteria:

FBOP 1237.11, 6.h.2 states: “All personal computers designated as
sensitive systems or "STAFF ONLY" shall have software that will, after a
specified period of keyboard inactivity, blank the display and require a
password for further access. The maximum time of inactivity shall be 10
minutes. All Novell or Windows NT workstations shall use software requiring
the network password. This shall be adequate for a staff member to leave a
workstation unattended for a short period. The Bureau standard, related
requirements, and exceptions are stated in the previous subsection.”

DOJ Order 2640.2D Chapter 2 Section 20, states: “All Department IT
systems shall implement a system banner that provides warnings: to
employees that accessing the system constitutes consent to system
monitoring for law enforcement and other purposes; and to unauthorized
users that their use of the system may subject them to criminal prosecution
and/or criminal or civil penalties.”




                                      -33-
Risk:

By not enabling the Windows NT screen saver with password protection, risk
is increased that the server will be exposed to unauthorized access when left
unattended. BOP's ability to prosecute criminals may be impacted by the
BOP's ability to prove they abused BOP systems with the knowledge these
systems were supposed to be used only for official purposes. Also, it is a
good practice to proactively inform users that they are subject to audit.

Recommendation:

  22. We recommend that the Director of the BOP ensure that BOP
      management develop, implement, and monitor documented policy
      establishing specific security standards and settings for maintenance
      controls. At a minimum, these standards and settings should:

             a. Enable a password protected screen saver on the server.

             b. Display a system-warning message when users log on the
                server.

Issue: NT Registry Settings

A registry is a database used by the Windows NT operating to store
configuration information. Most Windows applications write data to the
registry, at least during installation.

Condition:

  •     Users, besides administrators, can install print drivers.

  •     The CD-ROM and floppy drives are accessible to users not logged on
        locally.

  •     Unauthenticated users can read the RunOnce registry key.

  •     Unauthenticated users can read the PerfLib, WinLogon, and LSA
        registry keys.

  •     Unauthenticated users have access to 17 registry keys that contain
        server configuration information.

  •     Unauthenticated users can query information from the server.




                                       -34-
  •     A Default user name is displayed at login.

  •     There are no restrictions on who can define system attributes.

  •     Idle users are not disconnected after 15 minutes.

  •     Pagefile is not cleared at shutdown.

  •     Integrity checking is not being performed.

  •     The LMCompatibilityLever registry key is not securely set.

  •     The minimum security that is used for programs that use the NTLM
        Security Support Provider (SSP), or uses secure Remote Procedure
        Call [RPC] is not specified.

  •     Server Message Block (SMB) Signing is not being used.

  •     Users are allowed to schedule jobs on the server.

  •     Guests can view the system event and system application logs.

Cause:

The ITS II management did not develop documented standard configuration
policy for securing Windows NT registry settings.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to:.… Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Risk:

By not having the registry keys set to their most secure setting, the
system is vulnerable to misuse and overall system security is weakened.

Recommendations:

  23. We recommend that the BOP Director ensure that BOP management
      develop, implement, and monitor documented policy establishing
      specific security standards and settings for NT registry settings. At a




                                      -35-
        minimum, these standards and settings should include reconfiguring
        the registry settings to a more secure configuration.

Issue: Security Patches

Security patches contain update information for the operating system that
correct bugs or vulnerabilities in the software.

Condition:

The operating system software is not kept up to date with respect to
security patches.

Cause:

The ITS II management has not developed documented procedures for
updating computer security patches.

Criteria:

NIST SP 800-13 Section 5.10, Telecommunications Security Guidelines for
Telecommunications Management Network, states: "All new software
features and patches shall be tested first on a development system and
approved by an appropriate testing organization, prior to installation on an
operational system. Tests that modify live data shall not be performed. A
risk analysis shall be conducted of proposed software changes to determine
their impact on network element (NE) security. Any changes to security
features or security defaults shall be documented and made available to the
user before the software is distributed."

Risk:

If the version of the operating system and the security patches are not
current, there is an increased risk that an unauthorized user may be able
to exploit weaknesses.

Recommendation:

  24. We recommend that the BOP Director ensure that BOP management
      obtain the latest security patches from the operating system vendor.
      The patches should be properly installed and configured.




                                    -36-
Issue: Router Configuration

Condition:

  •   Source routing can be used to bypass the router’s route tables and
      potentially gain access to unauthorized portions of the network.

  •   Administrators can use the Internet protocol (IP) alias command to
      assign multiple IP addresses to the router. For example, in addition to
      the primary alias address, addresses can be specified that correspond
      to lines or rotary groups. Using the IP alias command in this way
      makes the process of connecting to a specific rotary group transparent
      to the user. If the IP alias command is enabled on Cisco products,
      transmission control protocol (TCP) connections to any destination port
      are considered valid connections.

  •   The TCP intercept feature helps prevent SYN-flooding attacks by
      intercepting and validating TCP connection requests. In intercept
      mode, the TCP intercept software intercepts SYN packets from clients
      to servers that match an extended access list. The software
      establishes a connection with the client on behalf of the destination
      server, and if successful, establishes the connection with the server on
      behalf of the client and knits the two half-connections together
      transparently. Thus, connection attempts from unreachable hosts will
      never reach the server. The software continues to intercept and
      forward packets throughout the duration of the connection. In the
      case of illegitimate requests, the software's aggressive timeouts on
      half-open connections and its thresholds on TCP connection requests
      protect destination servers while still allowing valid requests.

  •   Encryption is not being used on the router. Sensitive information may
      be the target of sniffing attacks by unauthorized users. If transactions
      are occurring that contain highly confidential information, it may be
      vulnerable to sniffing if it is not encrypted. Hash algorithms will help
      mitigate against a loss of data integrity should the data be
      manipulated in transit.

Cause:

The ITS II management has not properly configured the Cisco router.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to:…. Protect the



                                     -37-
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Risk:

Without properly configuring the Cisco router, attackers can potentially gain
access to unauthorized portions of the network.

Recommendation:

   25. We recommend that the Director of the BOP ensure that BOP
       management develop, implement, and monitor documented policy
       establishing specific security standards and settings for router
       configuration. At a minimum, these standards and settings should:

         a. Issue the “no ip source-route” command in interface
            configuration mode.

         b. Issue the “no ip alias” command in configuration mode.

         c. Issue the command: “ip tcp intercept list yyy,” (where yyy is the
             access list number to which the connections will be intercepted),
             in configuration mode.

         d. Enable encryption via the “crypto map” command.

Issue: Fail-over Capabilities

Fail-over is hardware or software backup to which the system switches to
in the event of a failure.

Condition:

The Cisco's fail-over capabilities are not in place.

Cause:

The BOP ITS II security management did not develop documented
configuration standards for securing BOP's Cisco routers. In addition, Cisco's
hot standby router protocol (HSRP) fail-over capability has not been
implemented on the router.




                                      -38-
Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to:…. Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Risk:

Cisco internet operating system (IOS) and hardware offers advanced fail-
over capabilities in case of hardware or software failure. Mission critical
routers (typically core routers) may be good candidates to take
advantage of the Cisco fail-over capabilities.

Recommendation:

   26. We recommend that the BOP Director ensure that BOP management
       implement Cisco's fail-over capabilities by configuring HSRP on
       critical external routers.

Issue: Command Line Access

Information on the router configuration can be retrieved or entered via
command-line access.

Condition:

   •    Different levels of PRIV EXEC access have not been defined. It may
        not be necessary for all administrators or users to have full privileged
        access to the router. Administrators that do not require this
        functionality can make unauthorized changes to the configuration.

   •    Anyone on the BOP network can access a login prompt to the router.
        Allowing anyone on the network access to the login prompt increases
        the risk of unauthorized access to the router.

   •    Telnet is being used to access the router. Telnet sessions transmit
        information, including usernames and passwords, in clear text. If an
        unauthorized user were to capture this information, it may place
        critical network devices at risk of compromise.

   •    AAA (Authentication, Authorization, and Accounting) has not been
        implemented. AAA provides for more granular levels of accounting
        and access privileges. These can be helpful in complex environments




                                       -39-
        where resources are being accessed by different users in multiple
        ways.

  •     Timeout values have not been assigned to all console terminals on the
        router. Timeout sessions provide additional security against consoles
        that are left unattended. If a user can gain access to a console left
        unattended they can modify the router’s configuration.

Cause:

The BOP management did not develop documented configuration
standards for securing BOP's Cisco routers.

Criteria:

DOJ Order 2640.2D Chapter 2 Section 16, states: “Access controls shall be
in place and operational for all Department IT systems to: Protect the
system, its data and applications, from unauthorized disclosure,
modification, or erasure."

Risk:

Allowing anyone on the network access to the login prompt increases the
risk of unauthorized access to the router.

Recommendation:

  27. We recommend that the Director of the BOP ensure that BOP
      management develop, implement, and monitor documented policy
      establishing specific security standards and settings for command
      line access. At a minimum, these standards and settings should
      include:

             a. Enter the following command: privilege level command, in
                global configuration mode.

             b. Create an appropriate access-list using the access-list
                command in configuration mode. Once the access list has
                been created, apply it to the appropriate terminal (typically
                vty 0 4) using the access-group <basic access list number> in
                command.

             c. Enable SSH on the router.

             d. Enable Authentication, Authorization, and Accounting.



                                      -40-
             e. Establish a session timeout.

C. Audit Trails. Auditing provides the ability to detect and record security-
   related events. It tracks the activities of users by recording information
   about specific types of events, such as logon and logoff, file and object
   access, use of user rights, user and group management, security policy
   changes, restart, shutdown, and system events in a security log on the
   server.

Issue: Activity Logs

Condition:

System activities are not adequately logged and reviewed on a regular basis
on the BOP ITS II system.

Cause:

The ITS II management did not develop procedures for collecting, reviewing
and archiving activity logs.

Criteria:

DOJ Order 2640.2D Chapter 2, Section 19, states: “Department IT systems
shall:

  1. Maintain an audit trail of activity sufficient to reconstruct security
     relevant events.

  2. Include in the audit trail the identity of each entity accessing the
     system, time and date of the access, time and date the entity
     terminated access, activities performed using an administrator’s
     identification, and activities that could modify, bypass, or negate the
     system’s security safeguards.

  3. Protect the audit trail from actions such as unauthorized access,
     modification, and destruction that would negate its forensic value.

  4. Retain the audit trail for a period of 90 days, the minimum record
     retention period specified by the component, or the period specified in
     the system security plan, whichever is longer.

         a. Audit trails shall be reviewed in compliance with the review
            period specified for the audit trail in the system’s security plan.



                                      -41-
         b. IT systems operating in the Dedicated Mode of Operation or in a
            stand-alone environment that do not implement an audit trail
            must be justified and documented in the risk analysis and
            certification process.”

Risk:

Insufficient logging will result in the lack of an audit trail in the event of
unauthorized access or use. Insufficient reviewing of audit logs will result in
administrators not being alerted to any unauthorized activity as early as
possible. Also, with good logging and monitoring, administrators are often
given early warnings for hardware and software errors or problems.

Recommendation:

   28. We recommend that the BOP Director ensure that BOP management
       develop procedures for logging and monitoring system activity and
       require that audit logs be reviewed periodically.

CONCLUSION

      Our review disclosed that security controls need improvement to fully
protect the ITS II from unauthorized use, loss, or modification. Specifically,
we found security vulnerabilities in the areas of life cycle, authorize
processing, system security plan, personnel security, physical and
environmental protection, production, input/output controls, contingency
planning, hardware and systems software maintenance, data integrity,
incident response capability, identification and authentication, logical access
controls, and audit trails.

       We concluded that these vulnerabilities occurred because BOP
management did not fully develop, document, or enforce agency-wide
policies in accordance with current Department policies and procedures.
Additionally, the Department did not enforce its security policies and
procedures to ensure the ITS II was protected from unauthorized use, loss,
or modification through its certification and accreditation process.




                                     -42-
                                                                   APPENDIX I

      NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY
                  GENERAL CONTROL AREAS

     The review focused on evaluating the adequacy of management,
operational and technical controls over the following specific control areas:

I. MANAGEMENT CONTROLS. Management controls focus on the
management of the IT security system and the management of risk for a
system. They are techniques and concerns that are normally addressed by
management.

      • Risk Management. Risk is the possibility of something adverse
         happening. Risk management is the process of assessing risk,
         taking steps to reduce risk to an acceptable level, and maintaining
         that level of risk. Assessing risk management involves evaluating
         the BOP’s efforts to complete the following critical procedures:

         o Periodic performance of a system risk assessment had been
           performed.
         o Program officials understand the risk to systems under their
           control and had determined the acceptable level of risk.

      • Review of Security Controls. Routine evaluations and response to
         identified vulnerabilities are important elements of managing
         security controls of a system. Determining whether review of
         security controls had been adequately performed requires the
         auditor to assess if the following critical items were completed:

         o A system security control review had been performed for both
           ITS II and interconnected systems.
         o Management ensured effective implementation of corrective
           actions.

      • Life Cycle. Like other aspects of an IT system, security is best
         managed if planned for throughout the IT system life cycle. There
         are many models for the IT system life cycle but most contain five
         basic phases: initiation, development/acquisition, implementation,
         operation, and disposal. Assessing a system’s life cycle involves
         identifying if the following critical items are in place for the ITS II:

         o A system development life cycle methodology.
         o System change controls as programs progress through testing to
           final approval.



                                      -43-
     • Authorize Processing (Certification and Accreditation).
       Authorize processing (also referred to as certification and
      accreditation) provides a form of assurance of the security of the
      system. To determine whether the ITS II had been appropriately
      authorized to process data involves analyzing critical documents that
      identify whether:

        o The system had been certified/recertified and authorized to
          process (accredited).
        o The system is operating on an interim authority in accordance
          with specified agency procedures.

     • System Security Plan. A system security plan provides an
        overview of the security requirements of the system and describes
        the controls in place or planned for meeting those requirements.
        The plan delineates responsibilities and expected behavior of all
        individuals who access the system. Assessing whether the ITS II
        has an adequate system security plan requires identifying if the
        following critical elements were met:

        o A system security plan had been documented for the system and
          all interconnected systems if the boundary controls are
          ineffective.
        o The plan is kept current.

II. OPERATIONAL CONTROLS. Operational controls address security
controls that are implemented and executed by people. These controls are
put in place to improve the security of a particular system. They often
require technical or specialized expertise and rely upon management
activities as well as technical controls.

     • Personnel Security. Many important issues in computer security
        involve human users, designers, implementers, and managers. A
        broad range of security issues relates to how these individuals
        interact with computers and the access and authorities they need to
        do their jobs. Assessing personnel security involves evaluating the
        BOP efforts to complete the following critical procedures:

        o Duties are separated to ensure least privilege and individual
          accountability.
        o Appropriate background screening is completed.




                                   -44-
• Physical and Environmental Protection. Physical security and
   environmental security are the measures taken to protect systems,
   buildings, and related supporting infrastructures against threats
   associated with their physical environment. Assessing physical and
   environmental protection involves evaluating the BOP efforts to
   complete the following critical procedures:

  o Adequate physical security controls have been implemented and
    are commensurate with the risks of physical damage or access.
  o Data is protected from interception.
  o Mobile and portable systems are protected.

• Production, Input/Output Controls. There are many aspects to
   supporting IT operations. Topics range from a user help desk to
   procedures for storing, handling, and destroying media. Assessing
   production, input/output controls involves evaluating the BOP
   efforts to complete the following critical procedures:

  o User support is being provided to ITS II users.
  o Media controls are in place for the ITS II.

• Contingency Planning. Contingency planning ensures continued
   operations by minimizing the risk of events that could disrupt
   normal operations and having an approach in place to respond to
   those events should they occur. Assessing contingency planning
   involves evaluating the BOP’s efforts to complete the following
   critical procedures:

  o Identify the most critical and sensitive operations and their
    supporting computer resources.
  o Develop and document a comprehensive contingency plan.
  o Have tested contingency/disaster recovery plans in place.

• Hardware and System Software Maintenance. These are
   controls used to monitor the installation of, and updates to,
   hardware and software to ensure that the system functions as
   expected and that a historical record is maintained of changes.
   Some of these controls are also covered in the Life Cycle Section.
   Assessing hardware and system software maintenance involves
   evaluating the BOP efforts to complete the following critical
   procedures:

  o Access is limited to system software and hardware.
  o All new and revised hardware and software are authorized,
    tested and approved before implementation.



                              -45-
    o Systems are managed to reduce vulnerabilities.

• Data Integrity. Data integrity controls are used to protect data
   from accidental or malicious alteration or destruction and to provide
   assurance to the user that the information meets expectations
   about its quality and integrity. Assessing data integrity involves
   evaluating the BOP efforts to complete the following critical
   procedures:

    o Virus detection and elimination software is installed and
      activated.
    o Data integrity and validation controls are used to provide
      assurance that the information has not been altered and the
      system functions as intended.

• Documentation. The documentation contains descriptions of the
   hardware, software, policies, standards, procedures, and approvals
   related to the system and formalize the system’s security controls.
   Assessing documentation involves evaluating the BOP’s efforts to
   complete the following critical procedures:

    o There is sufficient documentation that explains how
      software/hardware is to be used.
    o There are documented formal security and operational
      procedures.

• Security Awareness, Training, and Education. People are a
   crucial factor in ensuring the security of computer systems and
   valuable information resources. Security awareness, training, and
   education enhance security by improving awareness of the need to
   protect system resources. Additionally, training develops skills and
   knowledge so computer users can perform their jobs more securely
   and build in-depth knowledge. Assessing security awareness,
   training, and education involves evaluating the BOP efforts to
   complete the following critical procedures:

    o Employees have received adequate training to fulfill their
      security responsibilities.

•   Incident Response Capability. Computer security incidents are
    an adverse event in a computer system or network. Such incidents
    are becoming more common and their impact is far-reaching. The
    following questions are organized according to two critical elements.
    Assessing incident response capability involves evaluating the BOP
    efforts to complete the following critical procedures:



                               -46-
         o There is a capability to provide help to users when a security
           incident occurs in the system.
         o Incident related information is shared with appropriate
           organizations.

III. TECHNICAL CONTROLS. Technical controls focus on security controls
that the computer system executes and depend upon the proper functioning
of the system to be effective. Technical controls require significant
operational considerations and should be consistent with the management of
security within the organization.

     •   Identification and Authentication. Identification and
         authentication is a technical measure that prevents unauthorized
         people or processes from entering an IT system. Access control
         usually requires that the system be able to identify and differentiate
         among users. Authentication is verification that a person’s claimed
         identity is valid and it is usually implemented through the use of
         passwords. Assessing identification and authentication involves
         evaluating the BOP’s efforts to complete the following critical
         procedures:

         o Users are individually authenticated via passwords and other
           devices.
         o Access controls are enforcing segregation of duties.

     •   Logical Access Controls. Logical access controls are the system-
         based mechanisms used to designate who or what is to have access
         to a specific system resource and the type of transactions and
         functions that are permitted. Assessing logical access controls
         involves evaluating the BOP’s efforts to complete the following
         critical procedures:

         o Logical access controls restrict users to authorized transactions
           and functions.
         o There are logical controls over network access.
         o There are controls implemented to protect the integrity of the
           application and the confidence of the public when the public
           accesses the system.

     •   Audit Trails. Audit trails maintain a record of system activity by
         system or application processes and by user activity. In
         conjunction with appropriate tools and procedures, audit trails can
         provide individual accountability, a means to reconstruct events,
         detect intrusions, and identify problems. Assessing audit trails



                                     -47-
involves evaluating the BOP’s efforts to complete the following
critical procedures:

o Activity involving access to and modification of sensitive or
  critical files is logged and monitored and possible security
  violations are investigated.




                            -48-
       APPENDIX II




-49-
-50-
-51-
-52-
-53-
-54-
-55-
-56-
-57-
-58-
-59-
                                                            APPENDIX III

          OIG, AUDIT DIVISION ANALYSIS AND SUMMARY
            OF ACTIONS NECESSARY TO CLOSE REPORT

Recommendation Number:

  1. Resolved. In order to close this recommendation, the Bureau of Prisons
     (BOP) needs to incorporate security requirements into the development
     and acquisition phases of the SDLC.

  2. Resolved. In order to close this recommendation, the BOP needs to
     incorporate procedures to document certification testing activities,
     update system documentation when security controls are added, retest
     security controls, and recertify the system after changes have been
     made.

  3. Resolved. In order to close this recommendation, the BOP needs to
     update operating controls as outlined in the June 2002 Security Test and
     Evaluation (ST&E) report, and complete the “Conditions of Certification”
     outlined in the Inmate Telephone System II (ITS II) certification
     statement.

  4. Resolved. In order to close this recommendation, the BOP needs to
     require all users, including vendor and contractor personnel, to read
     and sign the Rules of Behavior document (BOP Directive 1237-12) to
     ensure users are aware of its contents.

  5. Resolved. In order to close this recommendation, the BOP needs to
     incorporate guidelines for developing security plans outlined in the
     National Institute of Standard Technology (NIST) Special Publication
     (SP) 800-18 into the current ITS II security plan and incorporate the
     plan into the overall IRM strategic plan for the BOP.

  6. Resolved. In order to close this recommendation, the BOP needs to
     conduct an analysis on the current staff shortages by determining the
     current security and system administrator skills on the current BOP
     team and ensure that those individuals are moved to positions that do
     not conflict.

  7. Resolved. In order to close this recommendation, the BOP needs to
     enforce procedures in accordance with the BOP Directive 1237.11 and
     Department policy for the distribution of the BOP’s documented
     procedures on how to maintain ITS II user accounts to ITS II security
     staff and contractor personnel.



                                   -60-
 8. Resolved. In order to close this recommendation, the BOP needs to
    implement all of the recommendations outlined in the June 2002 ST&E
    report, specifically those outlined in section 4.12.

 9. Resolved. In order to close this recommendation, the BOP needs to
    document a process to control the transfer of media and BOP data.

10. Resolved. In order to close this recommendation, the BOP needs to
    ensure the contingency plan is distributed to appropriate individuals,
    including contractor staff.

11. Resolved. In order to close this recommendation, the BOP needs to
    develop a configuration standard for all systems that incorporates the
    most restrictive security settings possible.

12. Resolved. In order to close this recommendation, the BOP needs to
    develop policies and procedures surrounding the use of intrusion
    detection software and integrity validation software.

13. Resolved. In order to close this recommendation, the BOP needs to
    develop a policy for incident handling, response, and personnel
    support.

14. Resolved. In order to close this recommendation, the BOP needs to
    enforce Department password policies and procedures and install and
    activate a password filter on all servers to enforce parameters that
    enforce restrictions on passwords.

15. Resolved. In order to close this recommendation, the BOP needs to
    develop and monitor documented procedures establishing specific
    security standards and settings for access controls.

16. Resolved. In order to close this recommendation, the BOP needs to
    develop and monitor documented procedures establishing specific
    security standards and settings for user authentication and access.

17. Resolved. In order to close this recommendation, the BOP needs to
    implement the system key utility and restrict services so that they are
    running in a secured context.

18. Resolved. In order to close this recommendation, the BOP needs to
    develop, implement, and monitor documented procedures establishing
    specific security standards and settings for network controls.




                                   -61-
19. Resolved. In order to close this recommendation, the BOP needs to
    develop, implement, and monitor documented procedures establishing
    specific security standards and settings for user and group
    management controls.

20. Resolved. In order to close this recommendation, the BOP needs to
    develop, implement, and monitor documented procedures establishing
    specific security standards and settings for account integrity
    management.

21. Resolved. In order to close this recommendation, the BOP needs to
    develop, implement, and monitor documented procedures establishing
    specific security standards and settings for file system access.

22. Resolved. In order to close this recommendation, the BOP needs to
    develop, implement, and monitor documented procedures establishing
    specific security standards and settings for maintenance controls.

23. Resolved. In order to close this recommendation, the BOP needs to
    develop, implement, and monitor documented procedures establishing
    specific security standards and settings for Windows NT registry
    settings.

24. Resolved. In order to close this recommendation, the BOP needs to
    obtain the latest security patches from the operating system vendor.

25. Resolved. In order to close this recommendation, the BOP needs to
    develop, implement, and monitor documented procedures establishing
    specific security standards and settings for router configuration.

26. Unresolved. In order to resolve this recommendation, the BOP needs
    to comply with the recommendation to implement Cisco’s fail-over
    capabilities by configuring hot standby router protocol (HSRP) on
    critical external routers. In addition, the BOP needs to provide the
    OIG with documentation reflecting the current fail-over capabilities for
    Cisco routers residing on the ITS II network.

27. Resolved. In order to close this recommendation, the BOP needs to
    develop, implement, and monitor documented procedures establishing
    specific security standards and settings for command line access.

28. Resolved. In order to close this recommendation, the BOP needs to
    develop procedures for logging and monitoring system activity and
    require that audit logs be reviewed.




                                   -62-
